No.

In The
Supreme Court of the United States of America

MICHAEL RAMON OCHOA,
Petitioner, pro se,
v.
Dr. Arthur Levine, et al,
Respondents.

PROOF OF SERVICE
I, Michael Ramon Ochoa, do swear and declare that on or before November 07,
2019, as required by U. S. Supreme Court Rule 29,1 served the enclosed petition for
writ of certiorari and appendix on counsel for the parties to the above proceeding, and
on every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and
with first-class or priority postage pre-paid, at the following addresses:
- Clerk of the Court Scott S. Harris
Supreme Court of the United States
1 First Street, N. E.
Washington, DC 20543-0001
(202) 479-3011
Deputy Prothonotary John Vaskov, Esq.
Pa. Supreme Court
801 City-County Building
414 Grant St.
Pittsburgh, PA 15219
Deputy Prothonotary Nicholas V. Corsetti, Esq.
Pa. Superior Court
Office of Prothonotary
310 Grant Street, Suite 600
Pittsburgh, PA 15219
lof 5

RECEIVED
DEC - 2 2019
OFFICE OF THE CLERK
SUPREME COURT. U.S

•T,«

Counsel for Defendants 10,11.12,13
David S. Pollock, Esquire, PA I.D. #19902
Brian C. Vertz, Esquire, PA I.D. #064822
Benjamin E. Orsatti, PA I.D. #93092
Pollock Begg Komar Glasser & Vertz, LLC, PA Firm #419
437 Grant Street, Suite 501
Pittsburgh, PA 15219
Pro Se Defendants 1. 5. 21
Dr. Erin Rubin
1575 Fillmore St.
Denver, CO 80206
Dr. Erin Rubin
% University of Oklahoma General Counsel Anil V. Gollahalli
The University of Oklahoma Health Sciences Center
1100 N. Lindsay, Oklahoma City, OK 73104
Dr. Erin Rubin
% University Counsel and Secretary of the Board of Regents
Patrick T. O’Rourke
University of Colorado, Denver
1800 Grant St., Suite 800
Campus Box 35 UCA
Denver, CO 80203
Dr. Duane G. Spiker
3811 O'Hara Street
Pittsburgh, PA 15213
Dr. Duane G. Spiker
5614 Northumberland
Pittsburgh, PA 15217
Dr. Tong Wu %
President Michael A. Fitts
Tulane University
6823 St. Charles Avenue
New Orleans, LA 70118

3 of 5

Deputy Attorney General Jeffrey A. Rosen
U. S. Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
President Donald J. Trump
The White House
1600 Pennsylvania Avenue NW
Washington, DC 20500
Pa. Atty. General Josh Shapiro
Strawberry Square, 16th Floor
Harrisburg, PA 17120
Governor Tom Wolf
225 Main Capitol Building
Harrisburg, PA 17120
Director Christopher Wray
F.B.I. Headquarters
935 Pennsylvania Avenue, NW
Washington, D.C. 20535-0001
Allegheny County District Attorney
Stephen A. Zappala, jr.
Room 303 Courthouse
436 Grant Street
Pittsburgh, PA 15219
I declare under penalty of perjury that the foregoing is true and corrects

Michael Ramon Ochoa,
Petitioner, pro se
58 West Portal Ave #218
San Francisco, CA 94127
(415) 373-2172
michaelochoa@mac.com
Date: November 07, 2019
1 Additional email service listed in the Root Data at https://www.dropbox.com/sh/8r8kzqa5wz2zrbp/
AAC_J-wDwS55eRufMhic391ea?dl=0
5 of 5

